No. 20-5750
IN THE SUPREME COURT OF THE UNITED STATES
CHESTER STAPLES,
Petitioner,

U.
BOBBY LUMPKIN,
Director, Texas Department of Criminal Justice,
Correctional Institutions Division
Respondant.

PETITION FOR REHEARING

CHESTER STAPLES
ID#01853049
264 FM 3478
Huntsville, TX 77320

Petitioner P 0 Se

iz/-7/20.2

STATEMENT OF FACTS
At trial I, Chester Staples, was convicted of murder, Count 1;
and, unlawful poss. of a firearm by a felon, Count 2.. As shown
by the "JUDGMENT OF CONVICTION BY JURY" sheet. (which this Court
has a copy of, presented with app. for Writ of Cert.)

Charging Instrument

Statute for offense:

CT:1 19.02(b)(1) PC
INDICTMENT
CT:2 46.04 (a) PC
I present to this Court that the convicting Court presdnted to
the jury a mixed instruction of statutes. That being 46.04 and
46.02. df-the:Tex.1PC:nthe latter being; Unlawfully carrying
a weapon. This statute was not alleged in the indictment.
I, the defendant, lacked proper notice of statute-246.02 of the
Tex. PC that was presented to the jury through the 'Charge of
the Court.'
LEGAL AUTHORITY

A defendant may be tried only on the offenses alleged in the
indictment. Abdnor v. State, 871 SW2d 726, 728(Tex.Crim.App.1994).
An indictment must provide sufficient notice of the offenses
alleged to allow the defendant to prepare a defense. Curry v.
State, 30 SW3d 394, 398(Tex.Crim.App.2000). A jury charge may
not authorize the conviction of the defendant on a theory permitted by the jury charge but not alleged in the indictment.
Reed v. State, 117 SW3d 260, 265 (Tex. Crim.App.2003).

The Texas and the U. S. Constitution grant a criminal defendant
the right to fair notice of the specific charged offense. The
charging instrument must convey sufficient notice to allow the
accused to prepare a defense. Chapter 21 of the Texas Code of
Criminal Procedure governs charging instruments and provides
legislative guidance concerning the requirements of adequacy
of notice. With respect to informations, Article 21.21 T.C.C.P.
sets out what facts must be included in an information and states

2

in part, that the offense must be set forth in plain and intelligible words. Additionally, an information is required to include
everything that is necessary to be proved.

I present to this Court that the above is a Fundamental Error.
The Federal District Court stated that they were not t❑ correct
State Court errors. So I am asking this Court to review the complete
Charge of the Court and Closing Arguments. They are presened with
this motion.
Universal Declaration ❑ f Human Rights
Art. 3; Everyone has the right to life, liberty, and security of
person.
Art. 8; Everyone has the right t ❑ an effective remedy by the
competent national tribunals for acts violating the fundamental rights granted him by constitution or law.
Art. 2; Everyone is entitled to all the rights and freedoms set
forth in this Declaration.
Pollock v. State 405 SW3d 396; 2013
An accused is guaranteed the right to be informed of the nature
and cause of the accusations against him in all criminal actions.
U.S. Const. Amend; VI; Tex. Const. art. 1 § 10. The indictment
must be specific enough to inform the defendant of the nature
of the accusations against him so that he may prepare a defense.
Generally, .a charging instrument that tracks the language of
a criminal statute possesses sufficient specificity to provide
a defendant with notice of a charged offense. But when a statute
defines the manner or the means of commissiom in several alternative ways an indictment will fail for lack of specificity if
it neglects to indentify which of the statutory means it addresses

3

CONCLUSION

I am asking this Court to review the information presented in
this motion and grant the request for a "rehearing. I ask this
Court to issue an ORDER of Mandate to the Fifth Circuit Court
of Appeals of the United States that it grant me a Certificate
of Appealability.

Chester Staples
#01853049
264 FM 3478
Huntsville, TX 77320

pro se

/ 2 /7/a 4.2.0

